Audit of USAID’s Information Technology
Infrastructure
Audit Report No. A-000-05-006-P
February 22, 2005




                WASHINGTON, D.C.
               OFFICE OF INSPECTOR GENERAL




February 22, 2005


MEMORANDUM

FOR:          Acting Chief Information Officer, John Streufert
              Chief Financial Officer, Lisa Fiely

FROM:         IG/A/ITSA, Melinda G. Dempsey /s/

SUBJECT:      Audit of USAID’s Information Technology Infrastructure (Report
              No. A-000-05-006-P)

This memorandum transmits our final report on the subject audit. In finalizing the
report, we considered your comments on our draft report and have included them
in their entirety as Appendix II.

The report contains nine recommendations for corrective action. Based on your
comments to our draft report, we consider that management decisions have been
reached for Recommendation Nos. 1, 3, 4, 7, 8 and 9. For these recommendations,
please notify the Bureau for Management’s Office of Management Planning and
Innovation when final action is completed.

Based on our evaluation of your comments and all supporting documentation
provided, we consider that final action has occurred on Recommendation Nos. 2,
5, and 6.

I want to express my sincere appreciation for the cooperation and courtesies
extended to my staff during this audit.




                    1300 PENNSYLVANIA AVE., NW
                      WASHINGTON, DC 20523
(This page intentionally left blank)




                                       2
Table of   Summary of Results ................................................................................................. 5
Contents
           Background .............................................................................................................. 6

           Audit Objective ........................................................................................................ 7

           Audit Findings.......................................................................................................... 8

                      Does USAID have a capable information technology
                      infrastructure that supplies reliable interconnectivity between
                      USAID/Washington and overseas missions to effectively
                      support Phoenix? ...........................................................................................7

                                 USAID’s Network Performance Falls Short in AFR
                                 and ANE Regions..............................................................................9

                                 Information Resources Management Strategic Plan
                                 Outdated ..........................................................................................16

                                 Network Performance Standards and Processes
                                 Needed.............................................................................................18

                                 Phoenix Application Performance Goals Needed ...........................21

                                 Phoenix Project Needs Contingency Plan For Slow
                                 Network Connectivity .....................................................................22
           Evaluation of Management Comments .................................................................. 24

           Appendix I – Scope and Methodology................................................................... 25

           Appendix II – Management Comments ................................................................. 27

           Appendix III – USAID’s WAN Performance ........................................................ 31




                                                                                                                                    3
(This page intentionally left blank)




                                       4
Summary of   The Information Technology and Special Audits Division of the Office of Inspector
Results      General in Washington, D.C. has completed an audit to determine whether the U.S.
             Agency for International Development (USAID) has a capable information
             technology (IT) infrastructure that supplies reliable1 interconnectivity between
             USAID/Washington and overseas missions to effectively2 support USAID’s new
             core financial system known as Phoenix.3 This audit was a follow-on to the IT
             telecommunications related concerns identified in the Phoenix Overseas
             Deployment Pilot Observation at Egypt memorandum report.4 (See page 7)

             The audit concluded that USAID has a capable IT infrastructure that supplies
             reliable interconnectivity between USAID/Washington and most of USAID’s
             overseas missions in the Latin America and Caribbean (LAC) and Europe and
             Eurasia (E&E) regions to effectively support Phoenix. However, interconnectivity
             performance falls short at USAID’s missions in the Asia and Near East (ANE) and
             especially Africa (AFR) regions where telecommunications infrastructure is
             inherently limited in lesser-developed or remote areas. Additionally, USAID’s
             aging IT infrastructure is a contributing factor to slow network and application
             performance. (See page 8)

             In conducting the audit, we also noted the following related issues: (1) USAID has
             not documented its Information Resources Management Strategic Plan since May
             2000. (See page 16); (2) USAID’s Bureau of Management, Office of Information
             Resources Management (M/IRM) does not have formal standards and processes in
             place to measure performance of USAID’s worldwide area network. (See page
             18); (3) USAID does not have formal published standards or goals to measure the
             performance of transaction response times in Phoenix for either
             USAID/Washington or the missions. (See page 21); and (4) the Phoenix Overseas
             Deployment (POD) project’s technical contingency plan for slow network
             connectivity or network disruptions is still under development and there is no
             business contingency plan in place. (See page 22)

             In their response to our draft report, USAID’s Chief Information Officer and Chief
             Financial Officer agreed with all nine recommendations. Based on our evaluation,
             management decisions have been reached for Recommendation Nos. 1, 3, 4, 7, 8
             and 9 and final action has occurred on Recommendation Nos. 2, 5, and 6. (See
             page 24). Management comments are included in their entirety in Appendix II.



             1
               Reliable: consistent end-to-end network and hardware computing with minimal down time or
             disruptions.
             2
               Effectively: actual computer processing (i.e., speed, accuracy) is acceptable, reasonable, and
             consistent with industry standards.
             3
               At the time of the audit, the Phoenix system was based on CGI-AMS Momentum Financials®
             version 3.7.4.
             4
               USAID OIG Report No. A-000-05-001-S, issued on October 13, 2004.



                                                                                                           5
Background   USAID depends on its worldwide area network (WAN) IT infrastructure to
             process, store, transfer, and share information in support of implementing
             development programs. USAID/Washington and all USAID overseas missions
             communicate with each other over the WAN, which is comprised of three network
             paths:

                     1. Diplomatic Telecommunications Service (DTS): a network
                     system of interconnected secure data and voice circuits supporting
                     foreign affairs agency headquarters in Washington and U.S.
                     diplomatic missions abroad. The DTS Program Office (DTSPO) is
                     jointly administered by the Department of State and other foreign
                     affairs agencies to manage the global DTS network. Per
                     Congressional mandate, DTSPO must provide responsive, reliable,
                     secure and cost-effective telecommunications service to the foreign
                     affairs community.

                     2. Very Small Aperture Terminal (VSAT): a terrestrial station
                     used in satellite communications of data, voice and video signals.
                     Satellite technology is typically used where telecommunications
                     infrastructure is inherently limited, such as in lesser-developed or
                     remote areas. VSATs are used at missions where other network
                     services do not meet USAID requirements and/or are not cost
                     effective.

                     3. Internet Service Provider (ISP)/Virtual Private Network
                     (VPN): a network that uses the Internet as the medium for
                     transporting data. VPNs use encryption and other security
                     mechanisms to ensure that only authorized users can access the
                     network and that the data cannot be intercepted.

             In September 1999, USAID acquired a new core financial system—CGI-American
             Management Systems' Momentum Financials® (Momentum)—a commercial off-
             the-shelf (COTS) product. Momentum was configured to support USAID
             requirements and renamed “Phoenix.” In December 2000, Phoenix was rolled out
             to USAID/Washington. In 2004, Phoenix5 was piloted and rolled out to USAID’s
             accounting stations in Peru, Egypt, and Ghana and the Columbia and Nigeria client
             missions of Peru and Ghana, respectively.




             5
                At the time of the audit, the Phoenix system was based on Momentum version 3.7.4, a
             client/server type application. USAID is planning to upgrade this software to Momentum version
             6.x in June 2005. While enhancements are provided with version 6.x, the primary difference is the
             web-based browser environment. This upgrade will also enable integration with Momentum
             Acquisitions®.



                                                                                                            6
                  In July 2004, the Office of Inspector General observed the Phoenix pilot
                  deployment process conducted at USAID/Egypt. The observation raised concerns,
                  among others, of slow system response times when processing transactions in
                  Phoenix. The uncertainty of USAID’s telecommunications infrastructure is a
                  known risk associated with the Phoenix Overseas Deployment project. In the
                  Phoenix Rollout Project Charter,6 the technology assumptions and risks state that
                  the technical and communications infrastructure may not support Phoenix system
                  requirements. It was also reported in several Phoenix Deployment meetings that
                  USAID is relying on old hardware that may be unreliable to provide
                  interconnectivity between USAID/Washington and overseas missions.

                  In November 2004, the Phoenix Overseas Deployment project team updated the
                  deployment schedule. The revised schedule accelerates the LAC deployment from
                  April 2005 to February 2005 and will deploy Phoenix initially with Momentum
                  version 3.7.4. Table 1 below shows the revised deployment schedule for all four
                  regional bureaus:

                  Table 1 – Revised Phoenix Overseas Deployment Schedule
                      Regional Bureau                            Original Schedule       Revised Schedule
                      Latin America and Caribbean (LAC)          April 2005              February 2005
                      Upgrade Pilots, USAID/Washington, and      March 2005              June 2005
                      LAC to Momentum 6.x
                      Europe and Eurasia (E&E)                   August 2005             July 2005
                      Asia and Near East (ANE)                   December 2005           December 2005
                      Africa (AFR):
                        North                                    June 2005               March 2006
                        South                                    June 2005               April 2006




Audit Objective This audit was a follow-on to the IT telecommunications related concerns
                  identified in the Phoenix Overseas Deployment Pilot Observation at Egypt
                  memorandum report.7 The audit was added to the Office of Inspector General’s
                  fiscal year 2005 audit plan to answer the following question:

                            Does USAID have a capable information technology
                            infrastructure that supplies reliable8 interconnectivity between
                            USAID/Washington and overseas missions to effectively9
                            support Phoenix?

                  6
                    Phoenix Rollout Project Charter, MST-PMO-004-CP-004-F00-IBM, dated 8/15/03.
                  7
                    USAID OIG Report No. A-000-05-001-S, issued on October 13, 2004.
                  8
                    Reliable: consistent end-to-end network and hardware computing with minimal down time or
                  disruptions.
                  9
                    Effectively: actual computer processing (i.e., speed, accuracy) is acceptable, reasonable, and
                  consistent with industry standards.



                                                                                                                7
                 Appendix I contains a discussion of the audit's scope and methodology.


Audit Findings   USAID has a capable IT infrastructure that supplies reliable interconnectivity
                 between USAID/Washington and most of USAID’s overseas missions in the LAC
                 and E&E regions to effectively support Phoenix. However, interconnectivity
                 performance falls short at USAID’s missions in the ANE and especially AFR
                 regions where telecommunications infrastructure is inherently limited in lesser-
                 developed or remote areas. Additionally, USAID’s aging IT infrastructure is a
                 contributing factor to slow network and application performance.

                 Since 1999, security and telecommunications IT infrastructure has improved as a
                 result of M/IRM’s Wide Area Renovation Project. An analysis of USAID’s
                 interconnectivity between USAID/Washington and 45 designated overseas
                 Phoenix missions10 (including the 5 deployed pilot missions) indicates that 20 of
                 45 (44 percent) missions have the potential of achieving fast connectivity, when
                 compared to industry trends under current “best case” network conditions. From a
                 regional standpoint, LAC performed the best followed by E&E. On average,
                 USAID’s network was up and running 99.7 percent at all 45 missions during
                 October 2004, even at missions with slow network speeds.

                 However, interconnectivity between USAID/Washington and the overseas
                 missions in the ANE and AFR regions is the slowest among the 45 missions under
                 current “best case” conditions. Usually, missions located in these areas only have
                 satellite technology available, which runs slower than other network paths. When
                 technology catches-up in the lesser-developed or remote areas, interconnectivity
                 performance should likely improve, but this is difficult to predict. In the
                 meantime, USAID could improve several areas of its IT infrastructure and reduce
                 the risk of poor interconnectivity between USAID/Washington and overseas
                 missions by: (1) fine-tuning and/or replacing, if feasible, existing IT infrastructure
                 equipment, especially in lesser-developed or remote areas where network
                 performance falls short, (2) updating the Five-Year Information Resources
                 Management Strategic Plan, (3) developing and implementing standards and
                 processes for measuring and reporting on network performance, (4) developing
                 and implementing formal performance goals and processes for application
                 transaction response times, and (5) establishing a viable Phoenix Overseas
                 Deployment project business contingency plan for slow network connectivity.

                 Optimally, these improvements would be most effective if implemented prior to
                 deploying Phoenix to the missions worldwide, but at a minimum, USAID should
                 work on these improvements before deploying Phoenix to the ANE and AFR
                 regions. These areas are discussed in detail below.


                 10
                   At the time of the audit, 45 overseas Mission Accounting Control System (MACS) and
                 Controllers sites had been designated for Phoenix deployment.



                                                                                                     8
USAID’s Network Performance Falls
Short in AFR and ANE Regions

 Summary: Interconnectivity performance between USAID/Washington and
 overseas missions varies by region. When compared to current industry trends,
 network performance is considered slow in the ANE and AFR regions, but
 medium to fast in the LAC and E&E regions. USAID’s missions located in
 lesser-developed or remote areas are faced with limited telecommunications
 infrastructure and inherent technical constraints. Additionally, USAID’s aging
 IT infrastructure is a contributing factor to slow network and application
 performance. As a result, USAID’s network performance is sometimes slow
 and unfavorably impacts on Phoenix11 application performance.

Network Performance Benchmarks – According to industry guidelines, network
performance can be analyzed using various measurement goals such as response
time, capacity (bandwidth), utilization, throughput, etc. Response time,12
measured in terms of latency,13 is a performance goal that users care about the
most and is the focus of the analysis in this report. The actual latency of a data
packet on the network is a combination of the time taken to traverse the distance
and the time taken to process the packet at each of the routers along the
connection. Total network latency, calculated in milliseconds (ms), is called
Round Trip Time (RTT).

According to an industry leader in networking, any goals regarding latency must
take into account fundamental physics. Latency is relevant for all data
transmission technologies, but especially for satellite links and long terrestrial
cables. Geostation satellites are in orbit above the earth at a height of about 24,000
miles. This long distance leads to a latency of about 270ms for an intercontinental
satellite hop. In the case of terrestrial cable connections, latency is about 1ms for
every 120 miles. As for router latency, this refers to the latency accrued when
bridges, switches, and routers forward data. The latency depends on the speed of
the internal IT architecture equipment.

From a user’s perspective, waiting a long time for a computer system to respond
can be frustrating. For heavy transactional environments, long system response
times significantly impact on worker productivity. Users recognize small changes
in the expected response time. These experiences are relative to the baseline
performance users have come to expect from the applications they use. If their

11
   At the time of the audit, the Phoenix system was based on Momentum version 3.7.4. USAID is
planning to upgrade this software to Momentum version 6.x in June 2005. Performance data for
the future Momentum version 6.x was not available during the audit, thus it was not analyzed.
12
   Response time is the amount of time between a request for a network service and a response to
the request.
13
   Latency is generally the amount of time required for a data packet to traverse the network from
source to destination and refers to a delay factor that will inherently impact any transaction which
uses that component.



                                                                                                  9
current experience differs significantly from their expectations, support calls and
complaints increase dramatically.

Reputable IT research firms such as Gartner, CAIDA, and FineGround have
conducted extensive studies on RTT and latency in a WAN and internet
environment. Those studies on latency industry trends provide an industry
benchmark for measuring USAID’s network performance, as shown in Table 2
below.

Table 2 – Network Latency Industry Benchmark14
 RTT (ms)      Performance Value

 0-300         Optimal network speed: Best connectivity. Highest application
               performance and user productivity

 301-599       Minimal acceptable network speed: Connectivity medium to slow. Relative
               application performance reduced approaching the upper limit

 600+          Slow network speed: Poor connectivity and high latency. Application
               performance low and lost user productivity



Analysis of USAID’s Network Performance – Each of the 45 designated
overseas Phoenix missions15 (including the five pilot missions16) has a designated
primary and secondary network path. Those paths are either DTSPO, VSAT, or
ISP/VPN, depending on availability. Sorting USAID’s network monitoring data
from those missions by fastest available network path—regardless of actual
configured primary path at each mission—showed that the ISP/VPN network path
performed the best and provided the potentially lowest latency of the three network
paths. As shown in Figure 1 below, 20 of 45 (44 percent) missions have the
potential of achieving fast connectivity of less than 300ms. However at the same
time, 16 of 45 (36 percent) missions have the potential of only achieving
connectivity of 600ms or more under current “best case” conditions, which is
considered slow according to industry trends.




14
   The data used in this table was obtained from Gartner, CAIDA, and FineGround and was not
audited.
15
    At the time of the audit, 45 overseas Mission Accounting Control System (MACS) and
Controllers sites had been designated for Phoenix deployment.
16
   In 2004, Phoenix was piloted and rolled out to Peru, Egypt, and Ghana accounting stations and
the Columbia and Nigeria client missions of Peru and Ghana, respectively.



                                                                                             10
          Figure 1 – USAID’s Network Performance: Best Case Scenario17

     Figure 1 – USAID’s     Network Performance: Best Case Scenario. This is
                  I nterconnectivity between USAID/W and 45 Phoenix Missions
     a pie graph showing interconnectivity between USAID/W and 45 Phoenix
     Missions. The pie is comprised of three parts: (1) 0-300ms, 20 ISP/VPN
     missions, 44 percent; (2) 301-599ms, 2 VSAT, 1 DTSPO, 6 ISP/VPN,
     missions, 20 percent; and (3) 600+ms, 12 VSAT, 4 ISP/VPN missions, 36
     percent. Chart legend: 0-300ms: Optimal network speed: best connectivity.
                             600+m s
     Highest application performance       and user productivity.    301-599ms:
                             12 VSAT                            0-300m s
     Minimal acceptable network
                             4 ISP/VPNspeed: connectivity medium       to slow. Relative
                                                                20 ISP/VPN
     application performance 36%reduced approaching the upper   44% limit. 600+ms:
                                          301- 599m s
     Slow network speed: poor connectivity2 VSAT and high latency. Application
                                          1 DTSPO
     performance low and lost user productivity
                                            6 ISP/VPN
                                            20%




            0-300ms: Optimal network speed: Best connectivity. Highest application
            performance and user productivity

            301-599ms: Minimal acceptable network speed: Connectivity medium to slow.
            Relative application performance reduced approaching the upper limit

            600+ms: Slow network speed: Poor connectivity and high latency. Application
            performance low and lost user productivity


According to USAID officials, ISP/VPN is becoming increasingly popular with
missions because of improved high speed service availability compared to DTSPO
and VSAT. However, security and reliability of ISPs in certain lesser-developed
or remote areas, such as in AFR and ANE are a concern. Therefore, speed is not
always the key factor when selecting a primary network path for a mission.
M/IRM typically uses five factors when deciding on the primary network path for
a mission: availability, speed, reliability, security, and cost. M/IRM officials said
that the five factors must be balanced appropriately and these decisions are
constantly reevaluated to achieve the best possible outcome.

Figure 2 below presents a view of connectivity performance by regional bureau.
The analysis shows that missions in LAC and E&E regions perform the best, while
missions in ANE and especially AFR regions have major performance challenges.
In the LAC region, 9 of 10 (90 percent) missions have the potential of achieving
fast connectivity performance of 300ms or less. Meanwhile, in the AFR region, 10


17
  The amounts presented in this graph were provided by M/IRM’s Enterprise Network Monitoring
Service (ENMS) and its process for compiling the amounts was audited. The network performance
data is comprised of average daily RTT readings in September and October 2004 for DTSPO and
VSAT. For ISP/VPN, the RTT readings are the averages of one sample day in October and one
sample day in November 2004.



                                                                                           11
of 16 (63 percent) missions face slow connectivity of 600ms or more. For details
of all 45 missions, please refer to Appendix III.

            Figure 2 – USAID’s Network Performance by Regional Bureau18
     Figure 2 – USAID’s Network Performance by Regional Bureau.
     This is a bar graph that presents a geographical view of the 45
     Phoenix missions’    connectivity
                     Interconnectivity    performance
                                       between          by 45
                                               USAID/W and regional
                                                              Phoenix bureau.
                                                                      Missions Each
     region is represented with a bar and each bar shows the quantity of
     missions in each of the three
                               1        RTT categories:
                                                 2
                                                              4
                               LAC     E&E     ANE      AFR
                                                                            10
      0-300ms                    9       4      24        3
      301-599ms
            Missions
                                 1       2       3        3 3
      600+ms                       9     2       4       10
                                 10      8      11       16                 3
                                                 4
                                                              4
     Chart legend: 0-300ms: Optimal network speed: best connectivity.       3
     Highest application performance and user productivity. 301-599ms:
     Minimal acceptable network   LAC   speed:
                                            E&Econnectivity
                                                          ANE medium    AFRto slow.
     Relative application performance Rreduced           approaching the upper limit.
                                              egional Bureaus
     600+ms: Slow network speed: poor connectivity and high latency.
            0-300ms: Optimal network speed: Best connectivity. Highest application performance
     Application
     Applica tionuser
            and    performance
                      productivity   low and lost user productivity

             301-599ms: Minimal acceptable network speed: Connectivity medium to slow.
             Relative application performance reduced approaching the upper limit

             600+ms: Slow network speed: Poor connectivity and high latency. Application
             performance low and lost user productivity



The analysis of USAID’s network performance by regional bureau is consistent
with a recent United Nations study19 that ranked 178 countries on Information and
Communication Technology (ICT). Lower ranked ICT countries are primarily
located in Sub-Saharan Africa and Near East. Countries in the lower ranked
category are the poorest in the world with the lowest levels of communications
infrastructure. Landlocked countries are at an even greater disadvantage since
their international connectivity options are restricted to satellite.

Impact of High Latency on Application Performance – An analysis of USAID’s
network indicates that high latency impacts on Phoenix20 application performance.




18
   Ibid, Figure 1.
19
   The United Nation’s International Telecommunication Union published the first global index to
rank Information and Communication Technology of 178 countries on November 19, 2003.
20
   The analysis is based on the current Phoenix software—Momentum version 3.7.4. Performance
data for the future Momentum version 6.x was not available during the audit, thus it was not
analyzed.



                                                                                                 12
Logfile21 data that was collected for about three months at selected Phoenix pilot
              TP    PT




overseas missions shows that Phoenix pilot users experienced long wait-times for
certain transactions. For example, USAID/Nigeria experienced some of the
slowest times among the five pilot missions. The “verify” transaction times ranged
from about 1 minute to over 3 minutes and users reported that the system had been
slow, much slower than ever before. Phoenix occasionally froze or users were
blocked out and they had to exit Phoenix through task manager. USAID/Ghana
also experienced wait-times of over 2 minutes on certain transactions.

According to recent industry studies,22 an average transaction response time range
                                                                         TP   PT




of 6 to 10 seconds is a reasonable “rule of thumb” benchmark for Enterprise
Resource Planning type applications (similar to Phoenix), in consideration of
various RTTs and network environments. Additionally, FineGround’s research
correlated the impact of high latency on application performance. Figure 3 below
shows the correlation of application response times from a leading online banking
site across a range of various network latencies.

                   Figure 3 – Correlation of Latency and Application Performance23                                   TP   PT




          Figure 3 –25Correlation of Latency and Application Performance. This is
          a line graph that shows the correlation of application response times
                                                                          21.7 from a
                         Response Time (secs)




                     20
          leading online banking site across a range of various network
                                                                   18.4  latencies.
                                                15                                          15.1
           X Axis:
           Latency                                                                 11.8
                   10
           (ms)       40                             90    200     300
                                                                     8.3 400         500    600
                                                5         5.8
           Y Axis:          2.5
           Response 0
                          ‫ا‬
           time
                      0 40 100                                     200        300         400      500   600   700
           (secs)     2.5 5.8 8.3                                 11.8   15.1       18.4    21.7
                                                                Wide Area Network Latency RTT (ms)


As shown in Figure 3, application performance degrades rapidly with latency. For
example, response time with 300ms of latency is almost 5 times more than
response time with 40ms of latency.

In April 2004, the Program Management Office identified 33 risks for the Phoenix
Overseas Deployment project. One of the risks identified is related to poor
telecommunications and interconnectivity between USAID/Washington and the


21
TP Logfile data comes from the monitoring feature in Momentum 3.7.4 (Phoenix) for selected users
     PT




at the 5 pilot missions and USAID/Washington to collect actual transaction response time data from
September through November 2004.
22
TP Recent industry studies published by FineGround and Publications & Communications, Inc.
     PT




23
TP The data presented in this graph was obtained from FineGround and was not audited. The Office
     PT




of Inspector General resident statistician used regression analysis to estimate application response
times for RTT between 300 and 600ms.



                                                                                                                               13
overseas missions. The implementation of applet24 technology was identified as a
technical risk mitigation strategy to ensure that a working interface to Phoenix is
available in all sites, in cases where available telecommunications cannot support
the Phoenix application. The applet technology (eFIX) that was designed as a
Phoenix Overseas Deployment technical risk mitigation strategy has not yet
achieved consensus that the types of transactions eFIX can process are sufficient to
be a practical solution for USAID missions likely to experience latency problems.
This is described further on page 22 of this report.

According to Gartner, greater reliance on new, inefficient protocols,25 combined
with increasing global requirements, will result in applications that will not meet
even minimum user expectations, resulting in lost user productivity. Gartner’s
research suggests that 90 percent of networks that do not address latency issues
will not meet business-critical application service levels through 2007 (0.8
probability). Distance and the speed of light are two contributors to latency that
cannot be optimized; therefore, Gartner recommends that network managers look
at alternative fine-tuning options for dealing with these limitations.

Impact of Aging IT Infrastructure – USAID’s aging IT infrastructure is a
contributing factor to slow network and application performance. Many IT
equipment items are near, have reached, or exceeded their serviceable lifespan.
Although M/IRM’s Wide Area Renovation Project that was initiated in 1999 had
significantly improved security and telecommunications IT infrastructure at 84
missions, some equipment items are considered already obsolete and no longer
supported by the manufacturer, according to M/IRM documents. As a result of
USAID’s lack of operating expense funds and lack of funding for technical
upgrades for the past several years, much of the IT infrastructure is older than
industry standard life cycles would typically allow. Because of the aging of the
infrastructure, maintenance is more difficult and expensive, failures are more
frequent, and securing the infrastructure components is more difficult.

In September 2004, M/IRM published its Technology Refresh Plan (the plan) to
present recommendations for the procurement and implementation of new
technology components and processes for USAID. The plan focused on funding
for planning, acquisition, and deployment of worldwide IT infrastructure technical
upgrades for many categories of equipment to bring USAID up to state-of-the-art
equipment standards in both headquarters and missions. This plan states that it
will improve the functioning of USAID’s IT systems in support of efficiency of
USAID staff and also in support of collaboration with the Department of State in
converging the two organizations’ networks. The plan expands on short and long-
24
   An applet is a program written in the Java programming language that can be included in an
HTML page, much in the same way an image is included.
25
   A protocol is an agreed-upon format for transmitting data between two devices. There are a
variety of standard protocols from which programmers can choose. Each has particular advantages
and disadvantages; for example, some are simpler than others, some are more reliable, and some
are faster.



                                                                                            14
 term initiatives focusing on those that are important to initiate over the next 12 to
 24 month period. The plan outlines and prioritizes 15 areas where IT
 infrastructure should be upgraded and highlights the risks of not upgrading and
 that “the greater danger lies in waiting and doing nothing.”

 Further, a recent study on USAID’s IT infrastructure26 reported that USAID’s
 current process of deferring spending and the postponement of the implementation
 of a sound and integrated information technology architecture are in direct
 contradiction to the mandates of the Information Technology Management Reform
 Act and the Clinger-Cohen Act. The study warns if USAID continues in the
 current mode of only replacing systems when they cease to function or when
 absolutely necessary to maintain required functionality, the continual aging and
 diversity will lead to catastrophic collapses and/or sky rocketing support costs and
 service interruptions over the next 12 to 36 months, jeopardizing the key USAID
 mission. The study suggests, in part, that USAID establish a plan to systematically
 upgrade critical infrastructure to a common, industry-standard platform,
 maximizing the potential to leverage other compatible government and private
 sector initiatives, such as those under way at the Department of State and in private
 technology providers.

 In sum, USAID’s IT infrastructure in missions located in lesser-developed or
 remote areas are faced with limited telecommunications infrastructure and inherent
 technical constraints. Additionally, USAID’s aging IT infrastructure is a
 contributing factor to slow network and application performance. Consequently,
 USAID’s network performance falls below industry benchmarks in these areas and
 our analysis shows that slow network speed unfavorably impacts on application
 performance, such as with Phoenix.

         Recommendation No. 1:      We recommend that USAID’s
         Director, Office of Information Resources Management,
         implement a process to continuously monitor and improve
         network protocol settings and fine-tune and/or replace, if
         feasible, existing information technology infrastructure
         equipment in support of the Phoenix Overseas Deployment
         project.

         Recommendation No. 2:          We recommend that USAID’s
         Director, Office of Information Resources Management,
         implement a process to periodically identify alternate sources of
         telecommunications      service   providers     and     emerging
         technologies, especially in lesser-developed or remote areas
         where telecommunications infrastructure is limited, such as in
         the Africa and Asia and Near East regions to help improve

26
   Forrester Research, Inc., “Analysis and Recommendations for USAID Infrastructure Refresh”
January 20, 2005.



                                                                                         15
       USAID’s information technology infrastructure performance in
       support of the Phoenix Overseas Deployment project.

Information Resources Management
Strategic Plan Outdated

 Summary: USAID has not updated its five-year Information Resources
 Management (IRM) Strategic Plan since May 2000. USAID’s Automated
 Directives System (ADS) 542.5.2 requires that the IRM Strategic Plan be
 updated annually. The primary reasons for deferring the IRM Strategic Plan
 were related to the unclear degree of joint IT initiatives between the Department
 of State and USAID and reorganization disruptions in the Bureau of
 Management. Nevertheless, without an updated IRM Strategic Plan, it will be
 difficult for USAID to focus on network connectivity performance challenges in
 support of the Phoenix Overseas Deployment project, as well as align its IT
 infrastructure to meet the joint Department of State/USAID's IT goals through
 effective information management.

Office of Management and Budget (OMB) Circular No. A-130, “Management of
Federal Information Resources,” establishes policy for the management of Federal
information resources and includes procedural and analytic guidelines for
implementing specific aspects of these policies. The Circular states that in the
capital planning and investment control process, there are two separate and distinct
plans that address IRM and IT planning requirements for the agency—the IRM
Strategic Plan and IT Capital Plan. The IRM Strategic Plan is strategic in nature
and addresses all information resources management of the agency. Agencies must
develop and maintain the agency IRM Strategic Plan as required by 44 U.S.C.
3506 (b) (2). IRM Strategic Plans should support the agency Strategic Plan
required in OMB Circular A-11, provide a description of how information
resources management activities help accomplish agency missions, and ensure that
IRM decisions are integrated with organizational planning, budget, procurement,
financial management, human resources management, and program decisions. The
IT Capital Plan is operational in nature, supports the goals and missions identified
in the IRM Strategic Plan, is a living document, and must be updated twice yearly.

Further, ADS 542, “Planning and Budgeting for IT Resources,” provides a
framework and the essential procedures for planning and budgeting for
information management and IT resources to carry out the Agency's mission,
goals, and objectives. Section 542.5.2 requires that an Agency-wide IRM Strategic
Plan for the creation, collection, processing, transmission, use, storage,
dissemination, and disposition of information be developed. It also states that the
IRM strategic planning process shall support the Agency’s current and future
mission, program needs, and include participation from the Agency's bureaus,
independent offices, and missions. Additionally, the ADS states that the IRM
Strategic Plan shall serve as the cornerstone for formulating the Agency-wide IRM



                                                                                 16
budget submission to OMB. Section E542.5.2 requires, in part, that the IRM
Strategic Plan be updated annually.

The purpose of the five-year IRM Strategic Plan is to provide a strategic plan
based on identified needs and priorities, and recognize the challenges USAID will
face in the next five years. Although the strategic plan that was published in 2000
has not been recently updated, it does require USAID to have an effective IT
infrastructure, which is one of the named strategic objectives.

According to USAID officials, updated formulation of the IRM Strategic Plan will
not be finished until around January 2005 because several on-going studies that
would serve as the foundation of the IRM Strategic Plan would not be ready until
then. The first draft IRM Strategic Plan is expected to be issued by the end of
March 2005. The reasons for postponing the IRM Strategic Plan were: (1) the FY
2004-2009 Department of State and USAID Strategic Plan discussed exploring
potential joint initiatives, including joint IT initiatives, but the degree of
“jointness” in IT initiatives was not made clear by senior management in both
agencies and (2) a very slow reorganization of the Bureau of Management, which
took nearly two years to complete and, as such, was somewhat disruptive.

In April 2004, the Department of State issued its IT Strategic Plan Fiscal Years
2006-2010 Goals Paper. The Goals Paper incorporates the FY 2004-2009
Department of State and USAID Strategic Plan (Joint Strategic Plan) and provides
a high-level blueprint for using the Department’s modern IT infrastructure to
deliver knowledge resources and IT services to State’s diplomatic practitioners
overseas and in the United States. The Joint Strategic Plan, which articulates the
vision for integrating management structures between the organizations, explains
that the Department of State and USAID will:

   •   Coordinate IT planning and common use of architecture and
       infrastructure. The Department of State and USAID will develop
       and implement a joint IT Strategic Plan to support common policy
       objectives.

   •   Develop and implement a joint Enterprise Architecture to guide
       both organizations’ future IT investments.

   •   Work together to strengthen our IT Capital Planning process and
       produce consolidated OMB business cases and Exhibit 300
       submissions.

   •   Develop a joint security architecture and a uniform and unified
       certification and accreditation process.




                                                                                17
Without an updated IRM Strategic Plan, it will be difficult for USAID to focus on
network connectivity performance challenges in support of the Phoenix Overseas
Deployment project, as well as align its IT infrastructure to meet the joint
Department of State/USAID's IT goals through effective information management.

       Recommendation No. 3: We recommend that USAID’s Chief
       Information Officer update USAID’s Information Resources
       Management Strategic Plan to address the Agency’s
       information technology requirements, priorities, and
       infrastructure challenges over the next five years and
       information technology goals articulated in the State
       Department's Information Technology Strategic Plan, Fiscal
       Years 2006-2010, Goals Paper (which is based on the 2004-2009
       Department of State and USAID Strategic Plan).

       Recommendation No. 4: We recommend that USAID’s Chief
       Information Officer develop and implement a process to
       annually update USAID's Information Resources Management
       Strategic Plan.

Network Performance Standards
and Processes Needed

 Summary: M/IRM does not have formal standards and processes in place to
 measure performance of USAID’s worldwide area network. Although M/IRM
 monitors the status of network connectivity on a daily basis for early-warning
 and diagnostic purposes, it does not have a process in place to measure network
 performance against established standards such as network Round Trip Time.
 Further, M/IRM does not separately monitor the ISP/VPN network path, which
 is becoming increasingly popular with missions because of improved high speed
 service availability compared to DTSPO and VSAT. ADS Section 549.3 states,
 in part, that M/IRM is responsible for monitoring network activities,
 documenting and logging connectivity, and measuring performance. Because of
 funding limitations and M/IRM not having established formal standards and
 processes for measuring performance of USAID’s worldwide area network, it is
 difficult for M/IRM to fulfill its responsibility of providing a reliable, consistent,
 and cost-effective telecommunications network for USAID/Washington and all
 overseas locations worldwide in support of the Phoenix Overseas Deployment
 project.

ADS 549, “Telecommunications Management,” provides the framework and
essential procedures for management and use of USAID’s full range of
telecommunications services. According to Section 549.3, a Network Operations
and Management Group within M/IRM is responsible for monitoring network
activities, documenting and logging connectivity, measuring performance, taking



                                                                                     18
corrective action to maintain operational status, recommending and implementing
network enhancements (in cooperation with M/IRM, Information Policy and
Administration Division) and developing contingency plans. Further, Section
549.5.4k states that M/IRM shall provide the tools for IT Specialists to perform
basic utilization reporting for their platforms and conduct periodic reviews on disk
utilization, line activity, concentrator workload, server performance, and evaluate
new maintenance releases for the operating system software.

In early 2000, M/IRM implemented a system performance monitoring tool
(Concord’s eHealth) to collect availability and performance data from selected
critical systems such as Phoenix and Database servers. According to USAID
officials, the eHealth tool provides a full, accurate picture about key system
performance metrics—including CPU, memory, disk, availability, and line
utilization—in an easy-to-understand, consistent format, regardless of the data
source. It also identifies systems and applications with performance problems and
provides a historical record of performance trends.

About two years ago, M/IRM initiated monitoring of USAID’s network
interconnectivity between USAID/Washington and the overseas missions. To
establish a network monitoring gauge, M/IRM collected data for several weeks,
analyzed it and determined that an appropriate high-end alert for network latency
was 3 seconds, which was based on how the network was performing at that time.
Using this gauge, M/IRM developed a network monitoring model to measure the
network status in USAID/Washington and the overseas missions, as shown in
Table 3 below.

       Table 3 – Network Monitoring Model
        Color Code             Network Latency

        1. Green               <= 1 second

        2. Blue                >1 second <= 3 seconds

        3. Violet              > 3 seconds


Recognizing the need to monitor system performance at the Phoenix pilot missions
in Egypt, Ghana, and Peru, M/IRM implemented Concord's Business Service
Console (BSC) in July 2004. Throughout the day, monitoring of activities and
status of applications (Phoenix, Crystal Enterprise), systems (Phoenix Servers), or
networks (DTSPO, ISP/VPN, and VSAT) can be done with the BSC tool. The
BSC tool can drill down to obtain details about the problem and determine the
cause. Using this information, M/IRM can determine how efficiently applications
and systems are running, whether critical resources are available, and what
capacity planning initiatives make sense. However, due to funding limitations,
M/IRM could only implement the BSC tool at the first three Phoenix pilot
missions.


                                                                                 19
Although M/IRM has implemented Concord’s monitoring tools on a limited basis
and actively monitors the status of USAID’s network on a daily basis for early-
warning and diagnostic purposes and also, it does not have a process in place to
measure network performance against established formal standards such as
network Round Trip Time. According to M/IRM officials, the current network
monitoring model (Table 3) was not intended to be a standard for measuring
USAID’s network performance.

Further, M/IRM does not separately monitor or report on the ISP/VPN network
path as it does with DTSPO and VSAT. As a result, regular statistical and
monitoring reports are not available for ISP/VPN as they are for the other network
paths. Reporting for ISP/VPN is done on an ad hoc basis when requested. When
M/IRM initiated network monitoring, it did not have a viable automated method to
determine the network path (i.e., DTSPO, VSAT, and ISP/VPN) being used by a
particular mission at a particular time and M/IRM could not correlate this data
back to make separate polling routines for each network path, which could have
different response time categories. However, according to M/IRM officials, this
capability is now available.

We also noted that M/IRM has not updated its network monitoring model to match
today's network environment where network speeds are running in milliseconds.
The current network monitoring model categorizes network speeds in seconds
rather than in milliseconds. The time categories that are currently being used to
monitor the network were based on capabilities from approximately two years ago
when M/IRM first started monitoring USAID’s WAN.

Without established goals, updated standards, and processes for measuring
USAID’s network performance, it is difficult for M/IRM to fulfill its responsibility
of providing a reliable, consistent, and cost-effective telecommunications network
for USAID/Washington and all overseas locations worldwide in support of the
Phoenix Overseas Deployment project.

       Recommendation No. 5:        We recommend that USAID’s
       Director, Office of Information Resources Management,
       develop and implement goals, standards, and processes that are
       consistent with industry best practices for measuring and
       reporting on USAID’s worldwide area network performance,
       such as expanding the use of performance monitoring tools
       agency wide.

       Recommendation No. 6:       We recommend that USAID’s
       Director, Office of Information Resources Management,
       implement a process to actively monitor and prepare
       performance reports on the Internet Service Provider/Virtual
       Private Network path.



                                                                                 20
Phoenix Application Performance
Goals Needed

 Summary: USAID does not have formal published standards or goals to
 measure the performance of transaction response times in Phoenix for either
 USAID/Washington or the missions. According to the Joint Financial
 Management Improvement Program's (JFMIP)27 testing guidelines for
 commercial off-the-shelf (COTS) software, agencies need to assess the COTS
 computing performance in the agency’s system environment for response time
 and transaction throughput capacity, especially when an agency has large
 volumes of transaction data. According to USAID officials, it would be difficult
 to apply a single standard or goal across all missions because the missions vary
 in size and telecommunications capability. Nonetheless, transaction response
 time is a thermometer of usability for users. Without formal goals and standards
 for measuring transaction response time in Phoenix, it is difficult for USAID to
 improve application performance and increase user productivity.

According to JFMIP’s “Qualification Test Process” guidelines for COTS software,
agencies need to assess the COTS computing performance in the agency’s system
environment for response time and transaction throughput capacity, especially
when an agency has large volumes of transaction data. Further, OMB Circular
No. A-130, “Management of Federal Information Resources,” states that an agency
must institute performance measures and management processes that monitor
actual performance compared to expected results.

USAID’s Phoenix Roll-out Technical Team (Phoenix Team) conducted extensive
testing and measured transaction response times at the five Phoenix pilot missions
using USAID/Washington as the baseline. However, the test results were not
measured against published Agency standards or goals. Instead, the Phoenix Team
used the assumption that USAID/Washington's performance is generally
recognized as an acceptable benchmark. According to USAID officials, it would
be difficult to apply a single standard or goal across all missions because the
missions vary in size and telecommunications capability. Therefore, USAID did
not quantify its “acceptable transaction response times” in Phoenix.

Although applying a single standard or goal across all missions would be
problematic, establishing goals by region or some other reasonable means would
be beneficial. Transaction response time is a thermometer of usability for users.
Users perceive the data processing experience in terms of how quickly they are
able to get the screen to update. Poor application performance harms staff

27
   Effective December 1, 2004, the Principals of the JFMIP voted to realign JFMIP’s
responsibilities for financial management policy and oversight. Under the new structure, the
JFMIP Program Management Office, which certifies financial management software, will report to
a new Chief Financial Officers Council committee to be chaired by the Chief of OMB’s Office of
Federal Financial Management, Federal Financial Systems Branch.



                                                                                           21
productivity and is a major problem for organizations. Users waste time and get
frustrated waiting for applications to respond. Where performance is particularly
poor, they will avoid using an application altogether, often reverting to manual
processes to get the job done. Performance of networked applications depends on
complex interactions among applications, servers, and networks. Organizations
need a detailed, quantitative understanding of these interactions to efficiently and
cost-effectively troubleshoot and deploy applications. Without formal goals and
standards for measuring transaction response time in Phoenix, it is difficult for
USAID to improve application performance and increase user productivity.

       Recommendation No. 7: We recommend that USAID’s Chief
       Financial Officer, in collaboration with the Chief Information
       Officer and the Director, Office of Information Resources
       Management, develop and implement formal performance goals
       for transaction response times in Phoenix in all worldwide
       locations.

       Recommendation No. 8: We recommend that USAID’s Chief
       Financial Officer, in collaboration with the Chief Information
       Officer and the Director, Office of Information Resources
       Management, implement a process to actively monitor
       transaction response times in Phoenix in all worldwide
       locations.

Phoenix Project Needs Contingency
Plan for Slow Network Connectivity

 Summary: The Phoenix Overseas Deployment (POD) project’s technical
 contingency plan for slow network connectivity or network disruptions is still
 under development and there is no business contingency plan in place.
 Appendix III of OMB Circular No. A-130 requires that application security plans
 include, in part, contingency planning to establish and periodically test the
 capability to perform the agency function supported by the application in the
 event of failure of its automated support. The applet technology (eFIX)—in its
 present form—represents a POD technical risk mitigation strategy; however
 because the types of transactions that eFIX can process is limited, eFIX is not a
 comprehensive business contingency plan. Additionally, eFIX will not be ready
 in time for the Phoenix deployment to LAC in February 2005. Without a viable
 business contingency plan, USAID is exposed to the risk of slow network
 connectivity and its negative impact on Phoenix application performance.

Appendix III of OMB Circular No. A-130 establishes a minimum set of controls to
be included in Federal automated information security programs; assigns Federal
agency responsibilities for the security of automated information; and links agency
automated information security programs and agency management control systems



                                                                                 22
established in accordance with OMB Circular No. A-123. For contingency
planning, the Appendix states that managers should plan for how they will perform
their mission and/or recover from the loss of existing application support, whether
the loss is due to the inability of the application to function or a general support
system failure.

In April 2004, the Program Management Office identified 33 risks for the POD
project. One of the risks identified is related to poor telecommunications and
interconnectivity between USAID/Washington and the overseas missions. The
implementation of the applet technology was identified as a technical risk
mitigation strategy to ensure that a working interface to Phoenix is available in all
sites, in cases where available telecommunications cannot support the Phoenix
application.      Further, having applet technology as an option (where
telecommunications is inadequate) will help ensure that USAID can achieve the
goal of a fully integrated core accounting system.

With the assistance of a contractor, M/IRM initiated the development of an applet
solution known as eFIX28 for Phoenix missions with telecommunications
environments characterized by high latency and low reliability links. However, the
types of transactions that eFIX can process is limited to only the most frequently-
used transactions. Additionally, USAID officials have not yet achieved consensus
that the types of transactions eFIX can process are sufficient to be a practical
solution for USAID missions likely to experience latency problems. As a result,
eFIX does not represent a full business solution for USAID, especially in overseas
missions with large volumes of transactions. Further, eFIX is scheduled for testing
in March 2005 and it will not be ready in time to support the Phoenix (Momentum
3.7.4) rollout to LAC in February 2005.

As part of contingency planning, some USAID officials have discussed the
concept of “regionalizing” Phoenix in areas with network connectivity
performance challenges, such as in the AFR region. Under this concept, Phoenix
transaction processing at missions with very slow connectivity performance would
be moved to a mission in the region with fast connectivity performance until such
time when technology improves in the lesser-developed or remote areas.
However, this concept has not been formalized as a business contingency plan.

Without a viable business contingency plan, USAID is exposed to the possible risk
of slow network connectivity and its negative impact on Phoenix application
performance.



28
   eFIX will allow users to work with a local website and database to create and queue selected
transactions for submission to Phoenix. eFIX uses local Exchange and Outlook for transaction
management. eFIX works with a “wizard-like” interface to step the user through the submission
process.



                                                                                            23
                       Recommendation No. 9: We recommend that USAID’s Chief
                       Financial Officer, in coordination with the Chief Information
                       Systems Security Officer, develop, test, and implement a viable
                       Phoenix Overseas Deployment project business contingency
                       plan for slow network connectivity.


Evaluation of   USAID’s Acting Chief Information Officer and Chief Financial Officer prepared a
Management      consolidated written response to our draft report. In their response, they agreed
                with all nine recommendations. We evaluated the comments, actions taken, and
Comments
                documents prepared by USAID and consider that management decisions have been
                reached for Recommendation Nos. 1, 3, 4, 7, 8 and 9 and consider that final action
                has been completed on Recommendation Nos. 2, 5, and 6.

                The consolidated written response is included in its entirety in Appendix II of this
                report.




                                                                                                 24
                                                                                                Appendix I


Scope and     Scope
Methodology
              The Information Technology and Special Audits Division of the Office of
              Inspector General in Washington, D.C. conducted this audit in accordance with
              generally accepted government auditing standards. The purpose of the audit was
              to determine whether USAID has a capable IT infrastructure that supplies reliable
              interconnectivity between USAID/Washington and overseas missions to
              effectively support Phoenix29.

              Fieldwork for this audit was conducted at USAID’s headquarters in Washington,
              D.C., from October 27, 2004 to January 24, 2005. This audit was a follow-on to
              the IT telecommunications related concerns identified in the Phoenix Overseas
              Deployment Pilot Observation at Egypt memorandum report.30

              Our audit focused on USAID’s IT infrastructure and whether it supplies reliable
              interconnectivity between USAID/Washington and overseas missions to
              effectively support Phoenix. Accordingly, this audit assessed management
              controls over that process. In addition, the audit assessed the validity and
              reliability of M/IRM’s computer-based data used in this report.

              Methodology

              To carryout the audit, we obtained an understanding of USAID’s current IT
              infrastructure, which included reviewing IT systems documentation, such as
              baseline architecture reports. We examined documentation and records that
              addressed plans for upgrading USAID’s IT infrastructure, such as USAID’s
              strategic planning documents, joint Department of State and USAID Strategic
              Planning documents, technology refresh plans, and capital asset plans.

              In answering the audit objective, we researched and identified current industry
              trends on WAN latency and performance, bandwidth, application response times,
              and hardware configurations to use as a benchmark to measure the performance of
              USAID's IT infrastructure. However, we focused our analysis only on network
              latency, response time, and interconnectivity between USAID/Washington and
              overseas missions in support of Phoenix. We assessed USAID’s contingency
              plans for addressing slow application performance of Phoenix and poor
              interconnectivity between USAID/Washington and overseas missions. We also

              29
                 At the time of the audit, the Phoenix system was based on Momentum version 3.7.4, a
              client/server type application. USAID is planning to upgrade this software to Momentum version
              6.x in June 2005. While enhancements are provided with version 6.x, the primary difference is the
              web-based browser environment. This upgrade will also enable integration with Momentum
              Acquisitions®.
              30
                 USAID Report No. A-000-05-001-S, issued on October 13, 2004.




                                                                                                            25
                                                                      Appendix I

examined USAID’s compliance with applicable laws, regulations, policies, and
procedures.

In addition, we interviewed responsible personnel in USAID’s Bureau for
Management, including officials in the Office of the Chief Information Officer,
Office of Information Resources Management, Office of Financial Management,
Office of the Chief Financial Officer, and the Program Management Office, as
well as contractors.

A materiality threshold was not established for this audit given the nature of the
audit objective, which involved assessing USAID’s IT infrastructure and its
interconnectivity between USAID/Washington and overseas missions.




                                                                               26
                                                                                  Appendix II


Management
Comments


                     USAID Logo; From
                     the American People
                                                                       February 14, 2005

             MEMORANDUM

             TO:           IG/A/ITSA, Melinda G. Dempsey

             FROM:         Acting Chief Information Officer, John Streufert /s/
                           Chief Financial Officer, Lisa Fiely /s/

             SUBJECT:      Draft Audit Report of USAID's Information               Technology
                           Infrastructure, (Report No. A-000-05-00X-P)

                    Thank you for the opportunity to respond to the subject draft report. We
             appreciate your analysis on the IT infrastructure and your recommendations.


             Draft Report Recommendations

             Recommendation 1: We recommend that USAID’s Director, Office of Information
             Resources Management, implement a process to continuously monitor and
             improve network protocol settings and fine-tune and/or replace, if feasible,
             existing information technology infrastructure equipment in support of the Phoenix
             Overseas Deployment project.

             Management Decision: The IRM Director will define a technology refresh plan by
             July 2005 and based on funds being provided for the plan, will begin implementing
             by August 2005. IRM has established procedures to monitor the corporate circuits
             over VSAT and DTS-PO. (August 2005)

             Recommendation 2: We recommend that USAID’s Director, Office of Information
             Resources Management, implement a process to periodically identify alternate
             sources of telecommunications service providers and emerging technologies,
             especially in lesser-developed or remote areas where telecommunications
             infrastructure is limited, such as in the Africa and Asia and Near East regions to
             help improve USAID’s information technology infrastructure performance in
             support of the Phoenix Overseas Deployment project.



                                                                                            27
                                                                      Appendix II


Management Decision: IRM currently reviews sources of telecommunications
service on a mission-by-mission basis as part of ongoing operations activity and
preparation for missions having Phoenix deployed and we will continue to do so.
We will also continue to coordinate with USAID missions, the Department of State
and DTS-PO to share information about alternate service types/service providers in
the locations where the Agency requires service. (Completed)

Recommendation 3: We recommend that USAID’s Chief Information Officer
update USAID’s Information Resources Management Strategic Plan to address the
Agency’s information technology requirements, priorities, and infrastructure
challenges over the next five years and information technology goals articulated in
the State Department's Information Technology Strategic Plan, Fiscal Years 2006-
2010, Goals Paper (which is based on the 2004-2009 Department of State and
USAID Strategic Plan).

Management Decision: The USAID CIO will update the USAID Information
Management Strategic plan. This plan will reflect the ongoing coordination and
joint planning efforts between USAID and the Department of State. (August 2005)

Recommendation 4: We recommend that USAID’s Chief Information Officer
develop and implement a process to annually update USAID's Information
Resources Management Strategic Plan.

Management Decision: The USAID CIO will establish a process to periodically
update the USAID Information Management Strategic Plan. (August 2005) And
we will revise the ADS to read periodically.

Recommendation 5: We recommend that USAID’s Director, Office of Information
Resources Management, develop and implement goals, standards, and processes
that are consistent with industry best practices for measuring and reporting on
USAID’s worldwide area network performance, such as expanding the use of
performance monitoring tools agency wide.

Management Decision: IRM has evaluated the current data we have on
connectivity and formalize standards for response times, bandwidth saturation, and
error rates; collects metrics in these categories by type of connectivity VSAT,
DTS-PO, ISP; and set standards for connectivity. (Completed)

Recommendation 6: We recommend that USAID’s Director, Office of Information
Resources Management, implement a process to actively monitor and prepare
performance reports on the virtual private network/internet service provider
network path.




                                                                                28
                                                                      Appendix II

Management Decision: IRM has implemented a process to monitor and collect
metrics on VPN/ISP paths that are currently in use at USAID missions.
(Completed)

Recommendation 7: We recommend that USAID’s Chief Financial Officer, in
collaboration with the Chief Information Officer and the Director, Office of
Information Resources Management, develop and implement formal performance
goals for transaction response times in Phoenix in all worldwide locations.

Management Decision: The Chief Financial Officer is currently collaborating with
the Chief Information Officer and the Director, Office of Information Resources
Management, on developing formal performance goals for Phoenix transaction
times based on industry best-standards. These performance goals would apply to
all missions that receive Phoenix. Once performance testing and user feedback at
some of the more technically-challenged missions is completed and performance
goals are established, the CFO’s will implement worldwide performance goals.
(November 2005)

Recommendation 8: We recommend that USAID’s Chief Financial Officer, in
collaboration with the Chief Information Officer and the Director, Office of
Information Resources Management, implement a process to actively monitor
transaction response times in Phoenix in all worldwide locations.

Management Decision: Once the performance goals for Phoenix transaction times,
based on industry best-standards, are established; the Chief Financial Officer, with
consultation from the Chief Information Officer, will implement a system to
proactively monitor Phoenix response times in the overseas missions. (November
2005)

Recommendation 9: We recommend that USAID’s Chief Financial Officer, in
coordination with the Chief Information Systems Security Officer, develop, test,
and implement a viable Phoenix Overseas Deployment project business
contingency plan for slow network connectivity.

Management Decision: The Chief Financial Officer is currently coordinating with
the Chief Information Officer and the Director, Office of Information Resources
Management, in developing, testing and implementing a business contingency plan
for slow network connectivity. (November 2005)




                                                                                 29
(This page intentionally left blank)




                                       30
                                                                                                       Appendix III


                                Interconnectivity between USAID/Washington and
USAID’s WAN                    45 Phoenix Missions Average “Best Case” Rankings31
Performance                                                                               Avg Best   Best case
                                                                               Regional
                                    Mission Name                City Name                 Case RTT   network
                                                                                Bureau
                                                                                            (ms)       path

                    1   El Salvador                           San Salvador       LAC         85      ISP/VPN
                    2   Honduras                              Tegucigalpa        LAC         91      ISP/VPN
                    3   Bosnia Herzegovina                    Sarajevo           E&E        115      ISP/VPN
                    4   Guatemala                             Guatemala City     LAC        124      ISP/VPN
                    5   Colombia (Pilot)                      Bogota             LAC        135      ISP/VPN
                    6   RSC-Hungary                           Budapest           E&E        166      ISP/VPN
                    7   Ukraine                               Kiev               E&E        167      ISP/VPN
                    8   Russia                                Moscow             E&E        171      ISP/VPN
                    9   Egypt (Pilot)                         Cairo              AFR        178      ISP/VPN
                   10   Peru (Pilot)                          Lima               LAC        192      ISP/VPN
                   11   Haiti                                 Port-au-Prince     LAC        209      ISP/VPN
                   12   West Bank/Gaza                        Tel Aviv           ANE        219      ISP/VPN
                   13   Morocco                               Rabat              ANE        222      ISP/VPN
                   14   Dominican Republic                    Santo Domingo      LAC        235      ISP/VPN
                   15   Jordan                                Amman              ANE        266      ISP/VPN
                   16   Bolivia                               La Paz             LAC        267      ISP/VPN
                   17   Philippines                           Manila             ANE        278      ISP/VPN
                   18   South Africa                          Pretoria           AFR        284      ISP/VPN
                   19   Senegal                               Dakar              AFR        288      ISP/VPN
                   20   Nicaragua                             Managua            LAC        297      ISP/VPN
                   21   India                                 New Delhi          ANE        352      ISP/VPN
                   22   Montenegro                            Pogdorica          E&E        377      ISP/VPN
                   23   Kosovo                                Pristina           E&E        390      ISP/VPN
                   24   Indonesia                             Jakarta            ANE        415      ISP/VPN
                   25   Pakistan                              Islamabad          ANE        435      ISP/VPN
                   26   Jamaica                               Kingston           LAC        447       DTSPO
                   27   Southern Africa Regional (Botswana)   Gaborone           AFR        473      ISP/VPN
                   28   Nigeria (Pilot)                       Abuja              AFR        546        VSAT
                   29   Ghana (Pilot)                         Accra              AFR        571        VSAT
                   30   Kazakhstan                            Almaty             E&E        602      ISP/VPN
                   31   Uganda                                Kampala            AFR        611        VSAT
                   32   REDSO/EA Kenya                        Nairobi            AFR        612        VSAT
                   33   Guinea                                Conakry            AFR        614        VSAT
                   34   Malawi                                Lilongwe           AFR        633        VSAT
                   35   Ethiopia                              Addis Ababa        AFR        639        VSAT
                   36   Zimbabwe                              Harare             AFR        643        VSAT
                   37   Georgia                               Tblisi             E&E        648        VSAT
                   38   Nepal                                 Kathmandu          ANE        668        VSAT
                   39   Madagascar                            Antananarivo       AFR        674      ISP/VPN
                   40   Mali                                  Bamako             AFR        675        VSAT
                   41   Mozambique                            Maputo             AFR        683        VSAT
                   42   Benin                                 Cotonou            AFR        692        VSAT
                   43   Afghanistan                           Kabul              ANE        697        VSAT
                   44   Cambodia                              Phnom Penh         ANE        722      ISP/VPN
                   45   Bangladesh                            Dhaka              ANE        745      ISP/VPN

              31
                The amounts presented in this table were provided by M/IRM/ENMS and its process for
              compiling the amounts was audited. The network performance data is comprised of average daily
              Round Trip Time (RTT) readings in September and October 2004 for DTSPO and VSAT. For
              ISP/VPN, the RTT readings are the averages of one sample day in October and one sample day in
              November 2004. RTT rankings are sorted from fasted to slowest interconnectivity.




                                                                                                                 31
